                              CLOSEOUT FOR M-89020002




proper attribution in presentations and publications. The complainant explained that she initially
wrote to the Director of NSFs Office of Equal Opportunity (OEO) who suggested that she Mite to
DGC/NSF about her allegations of misconduct in science. DGC forwarded the complainant's




         OIG contacted the complainant, who explained that she had already informed the
institution's administration about all of her allegations and that an inquiry had been initiated. OIG
referred its inquiry into the four allegations of intellectual th& to the institution and asked that the
                                                                                                           *
institution provide OIG with either an inquiry or an investigation report when the matter was
resolved. The authorized institutional representative informed OIG that attempts were underway
to resolve the situation. After OIG referred the inquiry into the four allegations of misconduct in
science it had received fiom the complainant, it learned that the complainant's original letter to
OEO included allegations that the subject sexually harassed her while she was a graduate student
under his supervision. The complainant linked the alleged sexual harassment with the subject's
alleged intellectual theft. She also claimed that the subject's alleged sexual harassment impeded
her research progress while she was a graduate student. NSF's Director of OEO had advised the
complainant to contact the U.S. Department of Education (DoEd) about the alleged sexual
harassment, which she did. About a year after OIG referred the inquiry to the institution, the
complainant initiated litigation proceedings against the subject and the institution. OIG suspended
its inquiry while the litigation proceedings were in progress.

         In 1992, OIG was mforrned that a settlement agreement between the complainant, the
subject, and the institution was reached that resolved all the issues between the parties. The
institution provided OIG with what it considered to be an inquiry report and supplemental material
describing the resolution of the case. OIG determined that, although the information indicated
some of the allegations had substance, it did not constitute a complete assessment of the facts of
the case. OIG requested that the institution initiate an investigation into the four allegations of
intellectual theft against the subject. After reviewing the institution's investigation report, OIG
concluded that fiuther information was required and initiated its own investigation. The results
from the institution's and OIG's investigations are discussed below.


                                         Page 1 of 6                                M89-02
                              CLOSEOUT FOR M-89020002
Allenations of Intellectual Theft

        Allenation #1: The complainant alleged that the subject committed intellectual theft when
he used some of the complainant's data in a figure in a publication1 he co-authored with another
scientist and he failed to acknowledge the complainant. The complainant explained that she and
the subject devised a new technique that enabled them to make specific experimental
measurements in less time than had been possible previously. She said that, as a result of the new
technique, the subject, in one evening, completed the measurements necessary to produce a new
figure that he and his co-author used in the publication.

        The Committee found that the subject and his co-author had been working on this
particular problem before the complainant joined the subject's research group. The Committee
determined that, because the subject and hls co-author submitted the paper just one month after the
complainant began working with the subject's research group, she would have provided little input
into the data represented by the new figure. In addition, OIG learned that the complainant's move
to the subject3 research group represented a change in her field of study. The Committee said the
complainant's statement that the subject took over the experiment and completed it in one night
considered with the complainant's recent arrival with the group indicated that she did not
contribute sufficient experience and effort with the development of the figure to consider its use as
intellectual theft The Committee suggested that the subject and his co-author might have made a
mistake in not acknowledging the complainant's effort with the data collection for the figure, but
concluded that no intellectual th& had occurred.

        The subject told the Committee that his co-author had submitted their paper for publication
before the complainant started to work with the subject's research group. According to the subject,
his co-author withdrew the paper when he thought of a more convincing way to support one of the
conclusions. The subject explained that the new analy-hcal procedures that he developed with the
complainant to collect these data were established by his co-author when he worked with the
subject's research group before the complainant's arrival. The subject said that, while he and the
complainant were collecting data for other studies with the newly established technique, he
realized that one of the observations further supported the work in his co-authored paper. The
subject admitted that, when he and his co-author re-submitted the paper, they replaced one of the
original figures in the paper with a figure that used some of the data collected by the complainant.
He said the complainant's participation with this effort was minimal, involving the collection of
data, and her inclusion as a co-author would have been misleading.




                                        Page 2 of 6                               M89-02
                              CLOSEOUT FOR M-89020002
        Although it might have been more collegial if the subject had acknowledged the
complainant's role in the collection of data with the one figure, OIG concluded that the subject's
action did not rise to the level of misconduct in science.

      Allegation #2: The complainant alleged that the subject committed intellectual theft when,
              or, he published a paper, as part of his participation at an @
              (the first conference), that contained
                                            -        text copied fiom a separate manuscript that th?
complainant and the subject had prepared. '

        The subject claimed he and the complainant had discussed his use of her work at the first
conference. The subject provided the Committee with a note fiom the complainant that he said he
had received prior to his departure for the first conference. In the note, the complainant agreed that
the subject could use her work including photographs and figures at the conference. In addition,
the subject said that he cited the complainant three times in the conference paper-in the abstract, in
the text where he acknowledged her collaborative work, and in the references where he listed her
Ph.D. thesis.

       The Committee described the paper as a review article. The Committee verified that the
subject had acknowledged the complainant in the paper and concluded that this allegation did not
represent intellectual theft.

         OIG confirmed that the subject had acknowledged the complainant three times in the first
conference paper. OIG noted that there was evidence that some of the text in the conference paper
was copied fiom a manuscript prepared jointly by the complainant and subject. OIG concluded
that it was not possible to separate contributionsmade by the subject and by the complainant. OIG
concluded that the subject's action did not rise to the level of misconduct in science because 1) the
contributions in the allegedly copied portion of the jointly prepared text were not clearly
attributable to the complainant, 2) the subject acknowledged the complainant in the paper three
times, and 3) the complainant's note to the subject, a copy of which she sent to OIG, indicated she
approved of the subject's presentation of her work at the first conference.

        Allenation #3: The complainant alleged that the subject committed intellectual theft when
he used copies of photographs and figures from her work3 in a report to a private company and
in a presentation at the first conference.




                                        Page 3 of. 6                               M89-02
                             CLOSEOUT FOR M-89020002
        The subject claimed that the complainant provided him with the photographs for his
use at the first conference as indicated by the note discussed as part of allegation #2. Further,
the subject said he did not use the photographs with his work for the private company, even
though the complainant had given him permission to do so. The subject explained to the
Committee that he sent the photographs to the committee in charge of the first conference,
which used them to produce a video tape shown at the. conference. The Committee concluded
that the allegation did not represent intellectual theft.

        If the subject used the photographs at the first conference or with a private company,
it was done with the complainant's knowledge and permission. The note to the subject from
the complainant specifically addressed the photographs and gave him permission to use them
with the first conference and with the private company. Further, the subject had
acknowledged the complainant for her work in the review paper presented for this conference
as discussed in allegation #2. OIG concluded that there was no substance to the allegation
that the subject committed intellectual theft if, and when, he used photographs or figures
prepared by the complainant in the first conference presentation or in a report to a private
company.

          Allegation #4: The complainant alleged that the subject failed to properly acknowledge
 work she had accom~lishedwhen he and his co-author presented and published some of her
                                                   4
 results at the                                      (the second conference). The complainant said
dthee subject
       ! ! ! p         his co-author with her data and that the use of these data in the development
 of the theory presented in the second conference paper was not acknowledged.

       The subject explained that his co-author was preparing another article that used the
complainant's data and on which the complainant was a co-author. He provided the committee
with a copy of the manuscript that the complainant agreed was in preparation for future
publication.

        The Committee characterized the second conference paper as a "general talk of a review
nature that [was] published as an abstract or short paper." The Committee stated that many papers
could have been cited in the second conference paper, including one authored by the complainant,
but that conference papers like tlus one were typically restricted in length and that it was not
reasonable to expect thorough citations. The Committee concluded that this allegation did not
represent intellectual theft.




                                       Page 4 of 6                               M89-02
                             CLOSEOUT FOR M-89020002
        OIG compared the non-refereed second conference paper and the manuscript that included
the complainant as an author. The paper did not reference any of the complainant's previous work.
From the available evidence, it could not be determined whether the theoretical analysis presented
in the paper was based on the complainant's data. OIG concluded there was insufficient substance
to the allegation that the complainant's data were used in the development of the theory presented
in the second conference paper.

Allegations of sexual harassment

       The complainant informed the U.S. DoEd of her allegations of sexual harassment
against the subject. She also filed a lawsuit which ended with a settlement agreement.
Following the settlement agreement, the DoEd closed the complainant's case. A DoEd
representative explained to OIG that DoEd was responsible for assisting a complainant in the
pursuit of justice. In this case, once the settlement was reached with respect to sexual
harassment allegations, DoEd reviewed the information and determined the case should be
closed.

        The Committee did not consider the allegations of sexual harassment against the
subject as part of its investigation of misconduct in science because it had previously
considered them under other existing policies and procedures. OIG received a part of the
settlement agreement in which the parties agreed to a resolution of the dispute to their
satisfaction and to seek no further relief. The confidential settlement agreement restricted the
parties from further discussion of the allegations. However, the complainant provided a great
deal of information to OIG about the alleged sexual harassment a short time after she first
contacted NSF. The complainant alleged that the subject's failure to properly acknowledge
her research efforts was evidence of his sexual harassment. However, OIG's and the
institution's investigations determined that, although the subject could have acted in a more
collegial manner, no intellectual theft had occurred., Consequently, the complainant's claim
that the subject's intellectual theft was evidence of his sexual harassment was not supported.
OIG also reviewed the complainant's claim that the subject's alleged sexual harassment
impeded her research progress. The complainant's detailed description of the alleged
instances of sexual harassment revealed a, complex and confusing relationship between the
complainant and the subject and OIG was unable to find instances of alleged sexual
harassment by the subject that could be clearly linked to his impeding the complainant's
research progress. We regarded the settlement agreement reached between the parties as the
resolution of the allegations in this case.

        This investigation is closed and no further action will be taken by OIG.



                                       Page 5 of 6                              M89-02
                         CLOSEOUT FOR M-89020002

cc:   StaffScientist, Deputy AIG-Oversight, AIG-Oversight, IG




                                  Page 6 of 6                   M89-02
